APPENDIX
Decision of the court of appeals
United States v. Seguea-Virgen, 799 F. App’x 214 (4th Cir. 2020) . . . . . . . . 1a
District court’s memorandum opinion
United States v. Segura-Virgen, 390 F. Supp. 3d 681 (E.D. Va. 2019) . . . . . 2a
Department of Homeland Security Form I-851, Notice of Intent to Issue a
Final Administrative Removal Order . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22a

United States v. Segura-Virgen, 799 Fed.Appx. 214 (2020)

Before KEENAN, THACKER, and RUSHING, Circuit
Judges.

799 Fed.Appx. 214 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007. See
also U.S.Ct. of Appeals 4th Cir. Rule 32.1.
United States Court of Appeals, Fourth Circuit.

Opinion
Affirmed by unpublished per curiam opinion.
Unpublished opinions are not binding precedent in this
circuit.

UNITED STATES of America, Plaintiff-Appellee,
v.
Rodolfo SEGURA-VIRGEN, Defendant-Appellant.

PER CURIAM:
Rodolfo Segura-Virgen pleaded guilty to illegal reentry, in
violation of
8 U.S.C. § 1326(a) (2018). On appeal, Segura
contends that the district court erred in denying his pretrial
motion to dismiss the indictment, in which he argued that
the underlying removal order was void or, in the alternative,

No. 19-4659
|
Submitted: March 31, 2020
|
Decided: April 2, 2020
Appeal from the United States District Court for the Eastern
District of Virginia at Richmond. Robert E. Payne, Senior
District Judge. (3:18-cr-00149-REP-1)
Attorneys and Law Firms
Geremy C. Kamens, Federal Public Defender, Alexandria,
Virginia, Joseph S. Camden, Assistant Federal Public
Defender, OFFICE OF THE FEDERAL PUBLIC
DEFENDER, Richmond, Virginia, for Appellant. G. Zachary
Terwilliger, United States Attorney, Alexandria, Virginia, S.
David Schiller, Assistant United States Attorney, OFFICE OF
THE UNITED STATES ATTORNEY, Richmond, Virginia,
for Appellee.

subject to collateral attack under
8 U.S.C. § 1326(d)
(2018), because he was not convicted of an aggravated felony.
We have reviewed the record, the parties’ briefs, and the
district court’s thorough memorandum opinion, and find no
reversible error. Accordingly, we affirm for the reasons stated
by the district court. United States v. Segura-Virgen, No. 3:18cr-00149-REP-1 (E.D. Va. May 16, 2019). We dispense with
oral argument because the facts and legal contentions are
adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED
All Citations
799 Fed.Appx. 214 (Mem)

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. 1a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

390 F.Supp.3d 681
United States District Court, E.D. Virginia,
Richmond Division.

Motion denied.
Procedural Posture(s): Pre-Trial Hearing Motion.

UNITED STATES of America,
v.
Rodolfo SEGURA-VIRGEN, Defendant.

West Headnotes (24)
[1]

Criminal No. 3:18-cr-149
|
Signed 05/15/2019
|
Filed 05/16/2019

On a charge for illegal reentry after deportation,
the Government has to prove that the alien has
been denied admission, excluded, deported, or
removed, and thereafter reentered the United
States without, inter alia, the permission of the
United States Attorney General. Immigration

Synopsis
Background: Mexican alien was charged with illegal reentry
after deportation. Alien filed motion to dismiss indictment.

Holdings: The District Court, Robert E. Payne, Senior
District Judge, held that:

and Nationality Act § 276,
1326(a).

[2]

[1] prior California conviction for unlawful sexual intercourse
with minor was not one for “aggravated felony” that subjected
alien defendant to deportation;

8 U.S.C.A. §

Aliens, Immigration, and
Citizenship
Denial of right to appeal;
waiver of right
Constitutional Law
exclusion; deportation

Admission and

The provision of the “illegal reentry after
deportation” statute that grants the alien a
due process right to challenge the underlying
deportation order is concerned with failures of
due process in an immigration proceeding that
would make it fundamentally unfair to rely on
a removal order coming out of that proceeding;
the provision focuses the inquiry on whether
there were procedural defects in an immigration
proceeding that insulate the resulting order
from judicial review. U.S. Const. Amend. 5;

[2] fact that prior conviction was not one for aggravated
felony did not relieve alien defendant of burden of proving
statutory prerequisites to collateral attack on removal order;
[3] alien was excused from burden of proving that he
exhausted administrative remedies available to seek relief
against removal order;
[4] alien was not deprived of opportunity for judicial review
of removal order;
[5] fact that alien defendant was not informed that he could
raise specific legal challenge to expedited removal order had
no bearing on whether he was deprived of judicial review;
[6] alien failed to show that he suffered actual prejudice from
defect in unsigned final order, and thus that removal order was
fundamentally unfair;

Aliens, Immigration, and
Citizenship
Reentry after removal

Immigration and Nationality Act § 276,
U.S.C.A. § 1326(d).

[3]

[7] removal order was not rendered fundamentally unfair
based on law in effect at time of removal.

App. 2a

8

Aliens, Immigration, and
Citizenship
Collateral Attack
Aliens, Immigration, and
Citizenship
Denial of right to appeal;
waiver of right

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

There are three elements that an alien defendant
must prove to challenge the underlying
deportation order, for the purposes of a criminal
charge for illegal reentry after deportation:
(1) the alien exhausted any administrative
remedies that may have been available to seek
relief against the order; (2) the deportation
proceedings at which the order was issued
improperly deprived the alien of the opportunity
for judicial review; and (3) the entry of the
order was fundamentally unfair. Immigration and
Nationality Act § 276,

matter of law. Immigration and Nationality Act
§ 276,

[7]

Aliens, Immigration, and
Citizenship
Collateral Attack

Act § 276,

[5]

276,

[8]

8 U.S.C.A. § 1326(d).

The burden of proof to establish that the elements
to permit an alien defendant's collateral attack
on an underlying removal order, for the purposes
of a criminal charge for illegal reentry after
deportation, rests with the defendant, and that
burden must be met by a preponderance of the
evidence. Immigration and Nationality Act §

Aliens, Immigration, and
Citizenship
Sex offenses

§ 101,

8 U.S.C.A. § 1101(a)(43)(A).

8 U.S.C.A. § 1326(d).
[9]

[6]

8 U.S.C.A. § 1326(d).

In determining whether an alien's conviction
under a state statute was a categorical match
with federal generic definition of “sexual abuse
of a minor,” which would subject the alien
to deportation based on a conviction for an
aggravated felony, regardless of the actual facts
of alien's crime, the court must presume that his
conviction was based on acts that were no more
criminal than the minimum conduct prohibited
by the statute. Immigration and Nationality Act

Aliens, Immigration, and
Citizenship
Collateral Attack

276,

Admission and

The requirement that an alien defendant prove,
by a preponderance of the evidence, all
three elements to permit a collateral attack
on an underlying removal order, in order
to obtain dismissal of a charge for illegal
reentry after deportation, is intended to ensure
that minimum due process was followed
in the original deportation proceeding while
preventing wholesale, time consuming attacks
on underlying deportation orders. U.S. Const.
Amend. 5; Immigration and Nationality Act §

8 U.S.C.A. § 1326(d).

An alien defendant may be excused from
meeting certain statutory requirements to a
collateral attack of an underlying removal order,
in the context of a criminal charge for illegal
reentry after deportation, if the underlying
deportation proceeding was procedurally flawed
in a material way. Immigration and Nationality

Aliens, Immigration, and
Citizenship
Collateral Attack
Constitutional Law
exclusion; deportation

1 Cases that cite this headnote
[4]

8 U.S.C.A. § 1326(d).

Aliens, Immigration, and
Citizenship
Collateral Attack

Aliens, Immigration, and
Citizenship
Sex offenses
In determining whether a state statutory sex
offense is a categorical match with the federal
generic “sexual abuse of a minor,” which would
qualify as an “aggravated felony” that would
subject an alien defendant to deportation, when
the state statute makes sexual intercourse abusive
solely because of the ages of the participants, the
victim must be younger than 16. Immigration and

If an alien defendant meets his burden of proving
all three elements for a collateral attack on an
underlying removal order, the charge for illegal
reentry after deportation must be dismissed as a

App. 3a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

Nationality Act § 101,
(43)(A).

[10]

removal order, as statutory prerequisite to
collateral attack on removal order, on motion
to dismiss indictment charging alien with illegal
reentry after deportation, where there were no
administrative remedies available for alien to
pursue. Immigration and Nationality Act §§

8 U.S.C.A. § 1101(a)

Aliens, Immigration, and
Citizenship
Sex offenses
California conviction for unlawful sexual
intercourse with minor was not categorical
match with federal definition of sexual abuse
of minor, as would qualify conviction as one
for “aggravated felony” that subjected alien
defendant to deportation, even if victim was 15
years of age at time of offense, where statutory
rape under California statute did not require
proof that victim be younger than 16 years of

101, 276,

1326(d)(1); Cal. Penal Code § 261.5(c).
2 Cases that cite this headnote
[13]

Aliens, Immigration, and
Citizenship
Collateral Attack
Although alien defendant's California conviction
for sexual intercourse with minor which was
not one for “aggravated felony” that subjected
alien to deportation, deportation order on basis
of conviction, by itself, did not relieve defendant
of burden of proving statutory prerequisites
to collateral attack of underlying order, in
subsequent prosecution for illegal reentry after
deportation. Immigration and Nationality Act
§§ 101, 276,

8 U.S.C.A. §§ 1101(a)(43)(A),

1326(d); Cal. Penal Code § 261.5(c).

[12]

Nationality Act § 238,
(3).

Aliens, Immigration, and
Citizenship
Denial of right to appeal;
waiver of right
Alien defendant who was deported following
expedited removal proceeding on basis of
California conviction for unlawful sexual
intercourse with minor, even though conviction
was not one for aggravated felony that subjected
alien to removal, was excused from burden
of proving that he exhausted administrative
remedies available to seek relief against

Aliens, Immigration, and
Denial of right to appeal;
Citizenship
waiver of right
Alien defendant's waiver of his right to obtain
judicial review of expedited removal order,
which order was issued on basis of California
conviction for unlawful sexual intercourse of
minor, was considered and intelligent, and thus,
alien was not deprived of opportunity of judicial
review in order to argue that conviction was not
one for “aggravated felony” that subjected him
to removal, as statutory prerequisite to collateral
attack of removal order, on motion to dismiss
indictment charging him with illegal reentry
after deportation, where I-851 form executed by
alien, which was written in English, explicitly
informed him that he could respond to charge
within ten calendar days and could seek “judicial
review of any administrative order” by filing
petition for review within 30 days of issuance
of order, alien spoke and understood English,
alien executed waiver after rights were read and
explained to him, and alien gave no indication
that he wished to fight removal. Immigration and

age. Immigration and Nationality Act § 101, 8
U.S.C.A. § 1101(a)(43)(A); Cal. Penal Code §
261.5(c).

[11]

8 U.S.C.A. §§ 1101(a)(43)(A),

8 U.S.C.A. § 1228(b)

2 Cases that cite this headnote
[14]

Aliens, Immigration, and
Citizenship
Right of review or
intervention; standing
An alien's waiver of his right to judicial review
of a removal order must be considered and
intelligent. Immigration and Nationality Act §
242,

App. 4a

8 U.S.C.A. § 1252.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

administrative tribunal, and (3) a fair opportunity
to be heard. U.S. Const. Amend. 5.
[15]

Aliens, Immigration, and
Denial of right to appeal;
Citizenship
waiver of right
Fact that alien defendant was not informed
that he could raise specific legal challenge to
expedited removal, namely, that prior California
conviction for unlawful sexual intercourse with
minor was not one for aggravated felony that
subjected him to removal, had no bearing on
whether alien's waiver of right to seek judicial
review of removal order was considered and
intelligent, for purposes of determining whether
alien was deprived of opportunity to seek judicial
review of removal order, as statutory prerequisite
to collateral attack on removal order on motion
to dismiss subsequent charge for illegal reentry
after deportation. Immigration and Nationality
Act §§ 101, 242, 276,
(43)(A),
1252,
Code § 261.5(c).

[18]

Constitutional Law
exclusion; deportation

5; Immigration and Nationality Act § 238,
U.S.C.A. § 1228.

[19]

8 U.S.C.A. §§ 1101(a)

Act § 276,

[17]

Admission and

Act § 276,

[20]

8 U.S.C.A. § 1326(d)(3).

Constitutional Law
exclusion; deportation

Admission and

To show prejudice from alleged defects in
an underlying removal order, for the purposes
of showing that the removal order was
fundamentally unfair, in violation of due process,
as a statutory prerequisite to a collateral attack
of a removal order on a motion to dismiss
a subsequent charge for illegal reentry after
deportation, the alien defendant must show that,
but for the errors complained of, there was a
reasonable probability that he would not have
been deported; this is not a generalized showing
of prejudice, as the defendant must link the
actual prejudice he claims to have suffered to
the specific due process violation at issue. U.S.
Const. Amend. 5; Immigration and Nationality

1326(d)(2); Cal. Penal

In order for an alien defendant to prove that
the underlying removal order was fundamentally
unfair, as a statutory prerequisite to a collateral
attack on the removal order, on the alien's motion
to dismiss a subsequent charge for illegal reentry
after deportation, the alien must show that (1)
his due process rights were violated by defects in
his underlying deportation proceeding, and (2) he
suffered prejudice as a result of the defects. U.S.
Const. Amend. 5; Immigration and Nationality

8

Aliens, Immigration, and
Citizenship
Collateral Attack
Constitutional Law
exclusion; deportation

Aliens, Immigration, and
Citizenship
Collateral Attack
Constitutional Law
exclusion; deportation

Admission and

The expedited administrative removal scheme,
in and of itself, comports with the minimum
requirements of due process. U.S. Const. Amend.

2 Cases that cite this headnote
[16]

Aliens, Immigration, and
Citizenship
Expedited removal

8 U.S.C.A. § 1326(d).

Aliens, Immigration, and
Citizenship
Collateral Attack
Constitutional Law
exclusion; deportation

Admission and

Even assuming arguendo that service on alien
defendant of unsigned final order of removal,
following expedited removal proceeding, rose to
level of due process violation, alien defendant
failed to show that he suffered actual prejudice
from defect in final order, as basis for claim

Admission and

Due process requires an alien who faces removal
be provided (1) notice of the charges against
him, (2) a hearing before an executive or

App. 5a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

deportation; at time of removal, Ninth Circuit
had not made clear whether California statute
under which alien was convicted was for
“aggravated felony,” and immigration official
testified that, in determining whether alien
had been convicted of “aggravated felony,” he
referred to list of California statutes that, at that
time, were considered “aggravated felonies,” and
list included statute that formed basis of alien's
conviction. U.S. Const. Amend. 5; Immigration

that removal order was fundamentally unfair,
as statutory prerequisite to collateral attack on
removal order on motion to dismiss subsequent
charge for illegal reentry after deportation;
immigration official testified in great detail about
steps that his office took in serving final orders
and that copy of signed final order would have
been given to alien, based on official's practice
at time, thus indicating that alien received
both unsigned and signed copies of final order
of removal, and alien presented no evidence
to contradict official's testimony. U.S. Const.
Amend. 5; Immigration and Nationality Act
§§ 238, 276,

and Nationality Act §§ 101, 276,
§§ 1101(a)(43)(A),
Code § 261.5(c).

8 U.S.C.A. §§ 1228(b)(3),

8 U.S.C.A.

1326(d)(3); Cal. Penal

1326(d)(3).
1 Cases that cite this headnote
[21]

Constitutional Law
general

[23]

Constitutional Law
exclusion; deportation

Proceedings in

Aliens, Immigration, and
Citizenship
Sex offenses
Aliens, Immigration, and
Citizenship
Collateral Attack
Constitutional Law
exclusion; deportation

Admission and

Admission and

In expedited removal proceedings, due process
requires that the alien have the opportunity to be
heard at a meaningful time and in a meaningful
manner, and under this rule, a due process
violation may be established where the expedited
removal proceedings are conducted in a language
that the alien does not understand. U.S. Const.
Amend. 5.

In an immigration proceeding, an error of law,
without more, will ordinarily not rise to the level
of a due process violation. U.S. Const. Amend. 5.

[22]

Aliens, Immigration, and
Citizenship
Expedited removal

[24]

Aliens, Immigration, and
Citizenship
Collateral Attack
Constitutional Law
exclusion; deportation

Immigration officials did not misapply law in
effect at time of expedited removal proceedings
in determining that prior California conviction
for unlawful sexual intercourse with minor
was equivalent of federal generic definition
of sexual abuse of minor, and thus was
“aggravated felony” that subjected alien to
removal, and thus, removal order was not
rendered fundamentally unfair, as violative of
due process, based on subsequent precedent
that California statute under which alien was
convicted was not categorical match for federal
definition of “sexual abuse of minor,” and
therefore not “aggravated felony,” as required
to permit collateral attack on removal order
on subsequent charge for illegal reentry after

Admission and

In order for an immigration court's
misapplication of the law in the context of a
removal proceeding to violate due process, as
would render the order of removal fundamentally
unfair and subject to collateral attack on a
subsequent charge for illegal reentry after
deportation, such an error must have been a
misapplication of the law as it existed at the time
of the removal proceedings, not as understood
in light of subsequent judicial decisions. U.S.
Const. Amend. 5; Immigration and Nationality
Act § 276,

App. 6a

8 U.S.C.A. § 1326(d)(3).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

officials and would have to apply for an adjustment of his
immigration status. The record shows that those steps did not

Attorneys and Law Firms

happen in this case. 2

*686 S. David Schiller, Office of the U.S. Attorney,
Richmond, VA, for United States of America.

MEMORANDUM OPINION
Robert E. Payne, Senior United States District Judge
This matter is before the Court on DEFENDANT'S MOTION
TO DISMISS THE INDICTMENT (the “Motion”) (ECF No.
11) which, for the following reasons, will be denied.

On January 6, 2001, Segura, then 19, was arrested in
California and charged by information with four separate
counts of engaging in “unlawful sexual intercourse with a
minor...15 years old, [ ] who was more than three years
younger than said person, in violation of [California] Penal
Code Section 261.5(c), a felony.” 3 Gov't Ex. 1. Each count
also alleged that

in the commission of the above offense
[Segura] personally inflicted great
bodily injury upon [the minor], not
an accomplice to the above offense,
within the meaning of [California]
Penal Code Section 12022.7 and also
causing the above offense to be a
serious felony within the meaning
of [California] Penal Code Section
1192.7(c)(8).

BACKGROUND
I. Procedural Context
Rodolfo Segura-Virgen (“Segura”) 1 was charged in a onecount indictment with violating

8 U.S.C. § 1326(a) and

(b) (2) by re-entering the country after having been
removed. ECF No. 1. On February 22, 2019, Segura filed the
Motion. ECF No. 11. The parties fully briefed the Motion,
and, on April 9 and 10, 2019, the Court received evidence
and heard oral argument on it. The Motion is now ripe for
decision.
II. Factual Background
Segura is a citizen of Mexico. ECF No. 12 at 1; Gov't Ex. 2.
He entered the United States illegally at or near San Ysidro,
California on or around June 1, 1990, when he was nineyears-old. Gov't Ex. 2.
In September 1993, Segura's mother filed an I-130, a “Petition
for Alien Relative” (the “I-130”). ECF No. 11-2; Def. Ex.
*687 A. As confirmed by the Government's witness, retired
immigration official Michael Toms (“Toms”), the filing of
an I-130 does not itself grant an alien any legal status.
Further proceedings are required before that can happen.
A stamp on the I-130 indicates that it was “approved” by
immigration officials on August 6, 1998. ECF No. 11-2; Def.
Ex. A. Toms testified that the notation “approved” means
only that immigration officials confirmed the existence of
a relationship between Segura and the individual who filed
the I-130 (his mother). Toms testified that, following such an
approval, the alien would then be interviewed by immigration

Id. On March 23, 2001, Segura was convicted of one count of
violating Cal. Penal Code § 261.5(c); the portion of the charge
relating to “inflict[ing] great bodily injury” pursuant to Cal.
Penal Code § 12022.7 appears to have been dropped, as were
the other three counts. Id.; Gov't Ex. 2. Segura was sentenced
to up to one year in prison. Id.
Thereafter, immigration officials instituted expedited removal
proceedings against Segura pursuant to
8 U.S.C. § 1228
(“Expedited removal of aliens convicted of committing
aggravated felonies”). On August 16, 2001, the Immigration
and Naturalization Service (“INS”) prepared a Form I-851,
“Notice of Intent to Issue a Final Administrative Removal
Order,” (the “I-851 form”), in Segura's case. Gov't Ex. 2.
The front page of the I-851 form reflected that Segura had
been “convicted in the Superior Court of California, in and
for the County of Kern, for the offense of Unlawful Sexual
Intercourse, in violation of Section 261.5(c) of the California
Penal Code.” Id. The I-851 then informed Segura that he was
removable under
8 U.S.C. § 1227(a)(2)(A)(iii) “because
you have been convicted of an aggravated felony as defined
in...

App. 7a

8 U.S.C. § 1101(a)(43)A.” 4 Id.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

5

The I-851 form, written in English, contains a “Your Rights
and Responsibilities” *688 section, which informed Segura
that he could be represented by counsel during his removal
proceedings; that he could respond to the charges in the
I-851 form within 10 calendar days of service of the I-851
form; 6 and that he could seek “judicial review of any final
administrative order by filing a petition for review within 30
calendar days after the date such final administrative order is
issued, or you may waive such appeal by stating, in writing,
your desire not to appeal.” Gov't Ex. 2.
On the back of the I-851 form, the Certificate of Service
reflects that it was served “in person” on Segura on August
17, 2001 by Michael Toms. Gov't Ex. 2. Below the Certificate
of Service, Segura signed under a line that stated: “I
acknowledge that I have received this Notice of Intent to
Issue a Final Administrative Removal Order.” Id. Segura's
acknowledgment occurred on August 17, 2001 at 1 p.m. Id. In
the middle of the back side of the I-851 form, there is a section
captioned: “I Wish to Contest and/or to Request Withholding
of Removal” that contains several check boxes. Id. Segura did
not select anything in that section. Instead, he filled out the
bottom section of the I-851 form, captioned: “I Do Not Wish
to Contest and/or Request Withholding of Removal.” 7 Id. In
that section, Segura selected a check-box that read:

I admit the allegations and charge in
this Notice of Intent. I admit that I am
deportable and acknowledge that I am
not eligible for any form of relief from
removal. I waive my right to rebut and
contest the above charges and my right
to file a petition for review of the Final
Removal Order. I wish to be deported
to [Mexico].

was not a citizen or national of the United States and was
not lawfully admitted for permanent residence; (2) he had a
final conviction for an aggravated felony as defined by
8
U.S.C. § 1101(a)(43)A; (3) he was ineligible for discretionary
relief; and (4) clear, convincing, and unequivocal evidence
supported the decision. Id. It also reflected that “Petition for
review” was “[w]aived by respondent.” Id. Toms testified that
this *689 box would be selected where, as here, the alien
chose not to contest deportation (as indicated on the I-851
form). Id.; see also Gov't Ex. 2.
At the evidentiary hearing, Toms further testified about the
procedures by which the 2001 Final Order was served on
Segura. First, Toms testified that he and Segura were located
in Bakersfield, California, and that the INS official who was
authorized to sign the 2001 Final Order was located in the
Fresno, California INS office, some 100 miles away from
Bakersfield. Second, Toms testified that he served the 2001
Final Order on Segura in person, which is reflected on the
Certificate of Service, and gave a copy of this document
to Segura. Gov't Ex. 3(a). That copy, however, had not
yet been signed by the authorized INS signatory in Fresno.
Third, Toms faxed the 2001 Final Order (with the completed
Certificate of Service) to the authorized INS official in
Fresno. Gov't Ex. 3(b). Fourth, the INS official in Fresno,
Darvin Weirich, signed the 2001 Final Order and faxed it back
to Toms in Bakersfield. Id. Lastly, Toms testified that, upon
receiving the fax from Fresno, he would have provided a copy
of the 2001 Final Order (signed by Weirich) to Segura and put
another copy in the A-file. 9 See id.

Id. Below that, Segura selected a check-box that stated: “I also
waive the 14 day period of execution of the Final Removal
Order.” 8 Id. Segura and Toms signed below these waivers,
which were also dated August 17, 2001 at 1 p.m. Id.
Thereafter, also on August 17, 2001, a Final Administrative
Removal Order (the “2001 Final Order”) was issued to Segura
by the INS. See Gov't Exs. 3(a) and 3(b). The 2001 Final
Order stated that Segura was deportable because: (1) he

Once the 2001 Final Order had been finalized, a “Warrant
of Removal/Deportation” (“Warrant of Removal”) was issued
for Segura on August 17, 2001. Gov't Ex. 4. Toms testified
that the Warrant of Removal would have been filled out
in Bakersfield and that then, Segura would have been
transported to the border for deportation. The reverse side
of the Warrant of Removal shows that Segura departed from
the United States on foot to Mexico on August 18, 2001.
Gov't Ex. 4. Before crossing the border, Segura signed the
Warrant of Removal and his departure was witnessed and
verified by an immigration official who also signed the
Warrant of Removal. Id. At the time of his August 18,
2001 departure, Segura received a document informing him
that he was “prohibited from entering, attempting to enter,
or being in the United States...[a]t any time because you
have been found deportable...and you have been convicted
of a crime designated as an aggravated felony.” Gov't Ex.
5. This document also informed Segura that thereafter he

App. 8a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

could petition the Attorney General for permission to enter
the United States from outside the United States, but that, if
he entered without such permission, he could be prosecuted
under

8 U.S.C. § 1326. Id.

Around December 1, 2003, Segura returned to the United
States illegally. Gov't Ex. 6. The record establishes that
immigration agent Miguel Munoz encountered Segura on
April 9, 2004, while Segura was incarcerated at Calipatria
State Prison in California. 10 Id. In a sworn statement
to Agent Munoz, Segura acknowledged that he had been
previously deported; that he had not sought the Attorney
General's permission to re-enter the United States; and that he
8 U.S.C.
understood that he could face prosecution under
§ 1326. Id. A “Notice of Intent/Decision to Reinstate Prior
Order” (the “Reinstatement Order”) was issued for Segura on
April 9, 2004 to reinstate the 2001 Final Order. Gov't Ex. 7.
Segura signed that document on April 20, *690 2004 and
Immigration Officer Johnny Williams signed it on April 23,
2004. Id. When he signed the Reinstatement Order, Segura
selected a check-box that read: “I...do not wish to make a
statement contesting this determination.” Id.
A “Warrant of Removal/Deportation” was then issued, and
Segura (pursuant to the 2001 Final Order) was removed
from the United States to Mexico (on foot) on April 30,
2004. Gov't Ex. 9. Once again, Segura received (and signed
for) a document warning him that he could not enter the
United States without permission of the Attorney General and
advising him of the consequences of illegally reentering the
United States. Gov't Ex. 8.
At a point unknown after April 30, 2004, Segura again
illegally reentered the United States. He was arrested by
Chesterfield County (Virginia) Police on October 12, 2018
for felony destruction of property and released on bond. ECF
No. 12 at 7-8. He did not appear at his court hearing, and
was arrested on December 13, 2018 for failure to appear.
Id. Immigration officials encountered him on December 15,
2018 while he was in Chesterfield County Jail; he was taken
into immigration custody at that time. Id. Thereafter, he was
indicted for the presently pending illegal reentry charge. ECF
No. 1.

I. Framework For Collateral Challenges To Prior
Deportation Orders
[1] [2] Segura has been charged with illegal reentry under
8 U.S.C. § 1326(a) and
(b)(2). To prove that charge,
one of the elements that the Government will have to
establish is that Segura “has been denied admission, excluded,
deported, or removed” and thereafter reentered the United
States without, inter alia, the permission of the United States
8 U.S.C. § 1326(a). In
United
Attorney General.
States v. Mendoza-Lopez, 481 U.S. 828, 107 S.Ct. 2148,
95 L.Ed.2d 772 (1987), the Supreme Court of the United
States held that, in illegal reentry cases, an alien has a due
process right to challenge the underlying deportation order.
Thereafter, Congress codified the due process requirements
in 8 U.S.C. § 1326(d). See United States v. Moreno-Tapia,
848 F.3d 162, 165-66, 169 (4th Cir. 2017); see also United
States v. Guzman-Velasquez, 919 F.3d 841, 845 (4th Cir.
2019). At bottom,
Section 1326(d) “is concerned with
failures of due process in an immigration proceeding that
would make it fundamentally unfair to rely on a removal order
coming out of that proceeding.” Moreno-Tapia, 848 F.3d at
169. The statute focuses the inquiry on whether there were
“procedural defect[s] in an immigration proceeding [that]
insulate[ ] the resulting order from judicial review....” Id.
[3] [4]
Section 1326(d) sets out three elements that an
alien must prove to challenge the underlying deportation
order. In full, that subsection reads:
In a criminal proceeding under this section [ 8 U.S.C.
§ 1326], an alien may not challenge the validity of
the deportation order described in subsection (a)(1) or
subsection (b) unless the alien demonstrates that–
(1) the alien exhausted any administrative remedies that
may have been available to seek relief against the order;
(2) the deportation proceedings at which the order was
issued improperly deprived the alien of the opportunity
for judicial review; and
(3) the entry of the order was fundamentally unfair.
8 U.S.C. § 1326(d) (emphasis added). The Fourth Circuit

DISCUSSION

has held that, to satisfy Section 1326(d)(3), an alien “must
show *691 that (1) his due process rights were violated

App. 9a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

by defects in his underlying deportation proceeding, and (2)

reentry charge must be dismissed as a matter of law.” El

United
he suffered prejudice as a result of the defects.”
States v. El Shami, 434 F.3d 659, 664 (4th Cir. 2005) (quoting

Shami, 434 F.3d at 663 (citing

United States v. Wilson, 316 F.3d 506, 510 (4th Cir.
2003)). To show prejudice, the alien must show that, “but for
the errors complained of, there was a reasonable probability

[7] In sum, collateral challenges in

that he would not have been deported.”

Id. at 665. An alien

may be excused from meeting certain
Section 1326(d)
requirements if the underlying deportation proceeding was
procedurally flawed in a material way. See Moreno-Tapia,
848 F.3d at 169;
United States v. Lopez-Collazo, 824 F.3d
453, 459-62 (4th Cir. 2016) (due process violation where alien
was served the I-851 form in language he did not understand);
El Shami, 434 F.3d at 662-64 (excusal from

Sections

1326(d) (1) and
(d) (2) and due process violation where
alien did not receive notice of his immigration proceeding).
It is evident from the statutory text that the defendant must
Section
satisfy (or be excused from) all three elements of
1326(d) to succeed in a collateral challenge. And, this Court
has so held. United States v. Gonzalez-Ferretiz, No. 3:18cr-117, 2019 WL 943388, *3-4 (E.D. Va. Feb. 26, 2019)
(surveying Fourth Circuit and district court decisions and
holding “that an alien may only challenge his underlying
deportation order by satisfying the three requirements of
Section 1326(d)”); see also Moreno-Tapia, 848 F.3d at

Wilson).
Section 1326

Section 1326(d)
prosecutions must proceed pursuant to
because of the clear statutory text and articulated
Congressional intent. 12 Accordingly, if the *692 Court
determines that Segura has failed to satisfy any of the three
elements of
Section 1326(d), his collateral challenge must
be rejected, and the Motion will be denied. Conversely, if
Segura satisfies (or is excused from) the three elements of
Section 1326(d), the illegal reentry indictment must be
dismissed. See

El Shami, 434 F.3d at 663.

II. Analysis
Segura makes two arguments in support of the Motion. See
ECF No. 11 at 5 (summarizing argument). First, he asserts
that his conviction under Cal. Penal Code § 261.5(c) is not
an “aggravated felony” as a result of the decision of the
Supreme Court of the United States in
Esquivel-Quintana
v. Sessions, ––– U.S. ––––, 137 S.Ct. 1562, 198 L.Ed.2d 22
(2017). Accordingly, says Segura, the immigration officials
in 2001 who ordered him removed based on his conviction
for an “aggravated felony” acted without jurisdiction and
their removal order is ultra vires. See ECF No. 11 at 5-10.
Second, Segura argues that he can satisfy the requirements

166;
El Shami, 434 F.3d at 663; United States v. GomezSalinas, No. 2:19cr10, 2019 WL 1141063, *2-4 (E.D. Va.
Mar. 12, 2019) (Davis, C.J.) (“[A] defendant must satisfy all

of
8 U.S.C. § 1326(d) to collaterally challenge his 2001
deportation. See ECF No. 11 at 10-15; ECF No. 13.

three provisions [of
Section 1326(d)] before he may wage
a collateral attack on the prior removal order.”); United States
v. Romero-Caceres, 356 F. Supp. 3d 541, 547 (E.D. Va. 2018)
(“[D]efendant here may not challenge the June 2007 Removal
Order unless he meets all three § 1326(d) requirements.”).
The Court's analysis in Gonzalez-Ferretiz applies in full force

Because the Supreme Court's decision in
EsquivelQuintana is pertinent to both of Segura's arguments, it is
appropriate to briefly address it. Then, this Opinion will
briefly address the ultra vires argument, which the Court
has previously rejected. See Gonzalez-Ferretiz, 2019 WL
943388, *5-6. It will then analyze whether Segura has met his

here. 11

burden under

[5]

Section 1326(d).

[6] The burden of proof to establish that the elements

of
Section 1326(d) have been satisfied “rests with the
defendant.” United States v. Galcia, No. 1:15cr59, 2016 WL
4054926, *2 (E.D. Va. July 26, 2016). And, that burden must
be met by “a preponderance of the evidence.” Id. (citing
several cases). If the alien meets his burden, “the illegal

A. The

Esquivel-Quintana Decision

Segura was deported in 2001 because immigration officials
at that time determined that his conviction under Cal. Penal
Code § 261.5(c) was an “aggravated felony” as defined by

App. 10a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

8 U.S.C. § 1101(a)(43)(A), for “murder, rape, or sexual
abuse of a minor.”

13

In 2017, the Supreme Court decided

Esquivel-Quintana v. Sessions, ––– U.S. ––––, 137 S.Ct.
1562, 198 L.Ed.2d 22 (2017), wherein the Court squarely
confronted the question of “whether a conviction under a state
statute criminalizing consensual sexual intercourse between a
21-year-old and a 17-year-old qualifie[d] as sexual abuse of a
minor under the [Immigration and Nationality Act (“INA”) ].
We hold that it does not.”
in

137 S. Ct. at 1567. The defendant

Esquivel-Quintana had been convicted under the same

statute at issue here: Cal. Penal Code § 261.5(c).
Id.
Employing the categorical approach, the Supreme Court had
to determine whether the California statute was a categorical
match with the generic federal definition of “sexual abuse of a
minor.”
at 1567.

Id. at 1567-68. It concluded that it was not.

Id.

minor” under the INA after
Esquivel-Quintana. See ECF
No. 13 at 1-4. The Government argues that the “decision made
clear that if the victim was under 16 years old (as here the
victim was 15), the conviction did constitute an aggravated
felony under the INA.” ECF No. 12 at 10. That contention
is in error because
Esquivel-Quintana squarely held that
Cal. Penal Code § 261.5(c) was not an aggravated felony for
“sexual abuse of a minor” because it did not require “that the
137 S.
victim be younger than 16” in the statute itself. See
Ct. at 1568-73; compare Cal. Penal Code § 261.5(c) with Cal.
Penal Code § 261.5(d) (prohibiting individuals over 21 from
engaging in unlawful sexual intercourse with a minor who
is under the age of 16). In other words, although Cal. Penal
Code § 261.5(c) could apply in cases with victims under age
16 (as here), it does not meet the generic federal definition
of “sexual abuse of a minor” because it also criminalizes
consensual sexual conduct “between a victim who is almost
18 and a perpetrator who just turned 21.” 15

[8] Under the categorical approach, “[r]egardless of the
actual facts of petitioner's crime, we must presume that his
conviction was based on acts that were no *693 more
criminal than” the minimum conduct prohibited by the statute.
Id. at 1568. Under Cal. Penal Code § 261.5(c), that
minimum conduct is “consensual sexual intercourse between
a victim who is almost 18 and a perpetrator who just turned
Id. Then, the Supreme Court had to consider whether
21.”
that minimum conduct fit the generic federal definition of
“sexual abuse of a minor.” See

1568. Accordingly, Segura is correct that, after
EsquivelQuintana, Cal. Penal Code § 261.5(c) does not qualify as an
“aggravated felony” for “sexual abuse of a minor” under the
INA.
*694 However, that does not mean that the Motion should
be granted. The Court now moves to the merits of Segura's
argument.

id. at 1568-72.

B. Jurisdiction

[9] The Supreme Court concluded, after reviewing the text,
surrounding statutory provisions, and state laws, that, “in
the context of statutory rape offenses that criminalize sexual
intercourse based solely on the age of the participants, the
general federal definition of sexual abuse of a minor requires
that the victim be younger than 16.”
Id.; see
id. at
1569-72. “Where sexual intercourse is abusive solely because
of the ages of the participants, the victim must be younger
than 16.” 14
Id. at 1572. And, “[b]ecause the California
statute at issue in this case does not categorically fall within
[the generic federal definition of “sexual abuse of a minor”],
a conviction pursuant to it is not an aggravated felony under
§ 1101(a)(43)(A).”

137 S. Ct. at

Id. at 1568.

[10] Segura is correct in asserting that Cal. Penal Code §
261.5(c) is categorically not a match for “sexual abuse of a

[11] Segura first argues that he can challenge his 2001
removal wholly apart from the requirements of
Section
1326(d). See generally ECF No. 11 at 5-10. In sum, he argues
that, because his conviction under Cal. Penal Code § 261.5(c)
was not an “aggravated felony,” he was not amenable to
removal on the ground charged. Id. As Segura sees it, the
immigration official made an error of law in 2001 (there was
no “aggravated felony”), and, as a result, the “officer who
entered [the removal order] lacked subject matter jurisdiction
to enter the order at all; it is ultra vires and void.” Id. at 6.
Thus, the argument goes, because the underlying deportation
is void, there is no need for Segura to satisfy the
1326(d) requirements.

Section

Recently, a nearly-identical argument was rejected in
Gonzalez-Ferretiz, 2019 WL 943388, *5-6. Segura cites the

App. 11a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

same cases cited by Gonzalez-Ferretiz in support of his
argument. Like Gonzalez-Ferretiz, Segura has not cited a

the conjunctive, so a defendant must satisfy all three in order
to prevail”).

Section 1326
single case that supports his argument in a
prosecution. See ECF No. 11 at 6-9. That is, he has not

For the reasons set forth below, Segura has failed to

cited any authority involving a prosecution under 8 U.S.C.
§ 1326 whereby a defendant was permitted to challenge
the classification of the predicate offense underlying his
removal other than pursuant to the requirements of Section
1326(d). Instead, like Gonzalez-Ferretiz, Segura cites several
appellate decisions wherein courts have found that the Board
of Immigration Appeals lacked jurisdiction to order an
alien's removal where an immigration judge had not ordered
removal. See

Rhodes-Bradford v. Keisler, 507 F.3d 77
James v. Gonzales, 464 F.3d 505 (5th

(2d Cir. 2007);

Cir. 2006);
Noriega-Lopez v. Ashcroft, 335 F.3d 874 (9th
Cir. 2003). Those decisions did not arise in the context of
a
Section 1326 prosecution. Moreover, in the
Section
1326 context, it appears that courts address arguments about
whether a predicate offense was an “aggravated felony” under
the
Section 1326(d) requirements. See, e.g.,
United
States v. Martinez-Hernandez, 912 F.3d 1207, 1211-15 (9th
Cir. 2019) (analyzing argument under Section 1326(d)(3));
United States v. Almanza-Vigil, 912 F.3d 1310, 1316 (10th
Cir. 2019) (same). Thus, the cases on which Segura relies do
not direct the inquiry here.
At bottom, the Court's reasoning in Gonzalez-Ferretiz applies
in full force here. Segura has not cited any authority to
change the analysis. Accordingly, the Court rejects Segura's

demonstrate that he satisfies (or is excused from)

Section

1326 (d)(2) or *695
(d)(3). Accordingly, his collateral
attack on the 2001 deportation order fails.
(1) Exhaustion Of Available Administrative Remedies
[12] It is uncontroverted that Segura never sought “any
administrative remedies that may have been available to
8 U.S.C.
seek relief against the [2001 removal order].”
§ 1326(d)(1); ECF No. 11 at 11; ECF No. 12 at 20-21. It
is also uncontroverted that Segura selected a check-box on
his I-851 form stating that he did not wish to challenge his
deportation and waiving any rights to review. See Gov't Ex.
2. At oral argument (and in his briefs), counsel for Segura
initially argued that Segura was excused from exhausting
administrative remedies under
Etienne v. Lynch, 813 F.3d
135 (4th Cir. 2015) because the I-851 form did not provide
an avenue to challenge the legal basis for his deportation
(i.e. whether he had been convicted of an “aggravated
felony” under the INA). However, counsel later took the view
that there was no administrative remedy for which Segura
qualified. Thus, the argument goes,
Section 1326(d)(1)
is inapplicable because there was nothing that Segura could
have exhausted. The Government does not specify which
administrative remedies were available to Segura, but does
not concede that there were no administrative remedies for
him to pursue.

“jurisdictional” argument. 16
Etienne v. Lynch applies to establish Segura's satisfaction
of
C.

Section 1326(d)

Next, it is necessary to consider whether Segura has satisfied
the three requisites of Section 1326(d). See Moreno-Tapia,
848 F.3d at 166; Gomez-Salinas, 2019 WL 1141063, at *2-4;
Romero-Caceres, 356 F. Supp. 3d at 546-47. Segura has the
burden to show that he has satisfied all three requirements
of

Section 1326(d) by a preponderance of the evidence.

Galcia, 2016 WL 4054926, at *2; see also
El Shami, 434
F.3d at 663 (discussing how the “requirements are listed in

Section 1326(d)(1). See

813 F.3d at 137-42. In

Etienne, the Court of Appeals had to decide whether it
had jurisdiction to review Etienne's expedited removal order
under
8 U.S.C. § 1252(d)(1), which requires that an alien
“exhaust[ ] all administrative remedies available to the alien
as of right” before the Court of Appeals has jurisdiction.
Id. at 138. Exhaustion of administrative remedies, the
Fourth Circuit held, “means using all steps that the agency
holds out, and doing so properly.”

Id. at 141 (quoting

Woodford v. Ngo, 548 U.S. 81, 90, 126 S.Ct. 2378, 165
L.Ed.2d 368 (2006)) (emphasis in original). The Court of

App. 12a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

Appeals concluded that the expedited removal proceedings
and the I-851 form (nearly identical to the one provided
to Segura) did not provide a way for aliens like Etienne
id. at
to challenge the legal basis for their removal. See
138-42. Because there was no way to raise such a challenge
on the form, Etienne “was not required to raise his legal
challenge to removal in order to meet the [administrative]
exhaustion requirement,” id. at 142, and the Court thus had
jurisdiction to proceed to consider whether Etienne had been
convicted of an “aggravated felony.” See

id. at 142-45.

right to rebut and contest the above charges and [his] right
to file a petition for review of the Final Removal Order” and
that he “waive[d] the 14 day period of execution of the Final
Removal Order.” 17 Id.
Now, nearly 20 years later, Segura argues that his waiver
was not “considered or intelligent” and that the waiver is
therefore invalid. See ECF No. 11 at 12-13. That is so, he
argues, because he did not know that he could challenge the
“aggravated felony” determination. Therefore, he argues that
he is excused from satisfying the judicial review prong of
Section 1326(d)(2).

Etienne arose in a different context than is
Of course,
presented in this case (whether the Court of Appeals had
jurisdiction to review Etienne's petition for review of his

[14] There is no doubt that an alien's waiver of his right
to judicial review must be “considered [and] intelligent.”

expedited removal proceedings, not in a

See

Section 1326

prosecution). And, notably, the alien in
Etienne had
indicated on his I-851 form that he wished to challenge his
deportation (although he did not specifically state that he
believed that his conviction was not an “aggravated felony”),
id. at 137-38, while Segura clearly indicated that he did
not wish to contest removal on any grounds. See Gov't Ex. 2.
Notwithstanding these differences, the Court is constrained
to apply the holding of
Etienne that, in expedited removal
proceedings involving the I-851 form (as here), an alien need
not have raised a legal challenge to the expedited removal
in order to satisfy an administrative exhaustion requirement
because there was no available administrative remedy. That
holding applies equally to the administrative exhaustion
requirement of

Section 1326(d)(1). Accordingly, under

Etienne, Segura has satisfied

Section 1326(d)(1).

*696 (2) Deprivation Of An Opportunity For
Judicial Review
[13] It is uncontroverted that Segura did not seek judicial
review of the 2001 deportation order until now. See
8
U.S.C. § 1326(d) (2). The I-851 form served on, and signed
by, Segura clearly informed Segura that he could “seek
judicial review of any final administrative order by filing a
petition for review within 30 calendar days after the date such
final administrative order is issued, or you may waive such
appeal by stating, in writing, your desire not to appeal.” Gov't
Ex. 2 (front side). And, on the back side of the I-851 form,
Segura selected check-boxes stating that he “waive[d] [his]

Mendoza-Lopez, 481 U.S. at 840, 107 S.Ct. 2148;

cf.
Narine v. Holder, 559 F.3d 246, 249-50 (4th Cir.
2009) (waiver of appellate rights must be “knowingly and
intelligently made”). 18 Where waiver of such rights is at
issue, some courts, including some district courts in this
Circuit, have held that it is the Government's burden to prove
that the alien's waiver was valid. See

United States v.

Gomez, 757 F.3d 885, 893-94 (9th Cir. 2014);
United
States v. Lopez-Collazo, 105 F. Supp. 3d 497, 511 (D. Md.
2015), rev'd on other grounds,

824 F.3d 453 (4th Cir.

2016);
United States v. Merino-Hernandez, 46 F. Supp.
3d 602, 607 (D. Md. 2014). However, unpublished Fourth
Circuit authority suggests that the alien must “demonstrate
that his waiver was invalid.” See United States v. Lopez,
667 Fed. Appx. 837, 838 n.1 (4th Cir. 2016) (per curium)
(unpublished). For the purposes of this Opinion, it is not
necessary to resolve the burden of proof issue because
the record is clear that Segura gave a “considered [and]
intelligent” waiver of his right to judicial review, no matter
which party bears the burden of proof.
In support of the argument that his waiver was invalid, Segura
relies largely on two cases. First, he argues that the Supreme
Court's decision in
Mendoza-Lopez establishes that
his waiver was not “considered or intelligent,” thereby
improperly depriving him, like the aliens in
Lopez, of judicial review. See

Mendoza-

481 U.S. at 840, 107

S.Ct. 2148. In
Mendoza-Lopez, an immigration judge
had failed to properly advise the aliens of their right to

App. 13a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

apply for suspension of deportation, and then accepted “their
unknowing waivers” of the their right to appeal. See
*697 id. at 831-32, 840, 107 S.Ct. 2148. As the Supreme
Court held:

affirmative right to a hearing to be held within a given time.”
Id. at 440 n.18. So too here.
In Segura's case, the expedited removal statute provides a
right to judicial review, see
8 U.S.C. § 1228(b)(3), and
the I-851 form clearly set out that right. See Gov't Ex. 2; see

The Immigration Judge permitted
waivers of the right to appeal that
were not the result of considered
judgments by respondents, and failed
to advise respondents properly of their
eligibility to apply for suspension
of deportation. Because the waivers
of their rights to appeal were not
considered or intelligent, respondents
were deprived of judicial review of
their deportation proceeding.

also
Lopez-Collazo, 824 F.3d at 457 (describing statutory
judicial review right in expedited removal proceedings);
id. at 461 n.3 (expedited removal scheme “in and of itself,
comports with the minimum requirements of due process”
because, inter alia, it allows the alien to seek judicial review)
(citation omitted). While the I-851 form does not state that the
alien may challenge the “aggravated felony” determination, it
does not tell the alien he may not challenge that determination
either. Segura waived his statutory right to judicial review, and
Mendoza-Lopez does not establish that such a waiver
was not considered and intelligent.

Id. at 840.
Mendoza-Lopez presents a materially different factual
case than Segura's. Most importantly, in
MendozaLopez, the suspension of deportation that the immigration
judge failed to advise the aliens about was a form of statutory
discretionary relief that the aliens might have been eligible
for had they known about it.
Id. at 831 & n.3, 107 S.Ct.
2148. Segura has identified no similar statutory right to relief
that was available and about which he was not advised. And,
indeed, he was advised of, and waived, the right of judicial
review. Instead, his argument is that he was deprived of
judicial review because he was not informed that, on judicial
review, he could challenge whether his underlying conviction
was for an “aggravated felony.”
In Rivera Lopez, Judge Brinkema rejected a similar argument
based on
Mendoza-Lopez in the context of an alien
who signed a “Stipulated Request for Order and Waiver
of Hearing” and then argued in his later
Section 1326
prosecution that his waiver was not knowing and voluntary.
355 F. Supp. 3d at 432-33, 440-41 & n.18. As Judge Brinkema
noted, “whereas the noncitizens in
Mendoza-Lopez
were deprived of critical information related to affirmative
rights they held under the INA, defendant here had no

[15] Segura also relies on
Etienne to argue that, because
the I-851 form did not inform him that he could challenge
the legal basis of his deportation, “[a]ny purported waiver of
appeal, or failure to appeal or exhaust administrative remedies
is therefore not knowing and intelligent.” ECF No. 13 at 20.
Etienne does not control the analysis here. As discussed
above,
Etienne arose in a different context and notably
involved an alien who affirmatively chose to challenge his
removal.

813 F.3d at 137-38. That is not the case here.

And, as the Court reads

Etienne, its application in the

Section 1326 context is limited to, at most, the exhaustion
of administrative remedies prong of

Section 1326(d)(1),

not to the judicial review prong of

Section 1326(d)(2).

Etienne dealt with the Court of Appeals' jurisdiction to
hear an appeal of the alien's expedited deportation (including
the “aggravated felony” determination) at the time he was
being deported, and did not purport to establish the principle
for *698 which Segura argues. 19
The foregoing authorities and the record in this case make
clear that Segura made a considered and intelligent waiver of
his right to judicial review. First, Segura acknowledges that,
at the time in issue, he spoke and understood English, so there
is no language issue in this case. Second, retired immigration
officer Toms testified that his practice was to read and review
the I-851 form with the alien before having him sign it. He

App. 14a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

testified that this practice included the waiver portion of the
form; if the alien indicated that he did not wish to fight
deportation after Toms read the form, Toms would mark the
form accordingly. In other words, Toms' testimony establishes
that Segura's waiver was made after an explanation by Toms.
Third, Segura's argument that he was deprived of judicial
review because he was not informed of a specific matter that
he could appeal (i.e. that he could challenge the “aggravated
felony” determination) does not comport with how courts
typically advise defendants of appellate rights. Courts do not
inform defendants of each aspect of their case that they may
appeal. Even where a specific right of appeal is affirmatively
defined (which the one Segura seeks is not), a court's failure
to advise a defendant about that right is not necessarily fatal.
See
Peguero v. United States, 526 U.S. 23, 24-28, 119
S.Ct. 961, 143 L.Ed.2d 18 (1999) (failure to advise defendant
of right to appeal sentence as required by Fed. R. Crim. P.
32 did not permit collateral relief where defendant “had full
knowledge of his right to appeal”). Absent authority to the
contrary (which Segura has not provided), the Court will not
adopt a rule that immigration officials must explain every
theory that might be presented on appeal.
Lastly, Segura has presented no evidence that he would have
sought judicial review in 2001 if he had been advised that
he could challenge the “aggravated felony” determination.
Etienne, Segura did not indicate in any
Unlike the alien in
way that he wanted to fight deportation. Only now, when he
is called to account for his illegal re-entry, does Segura argue
that he was deprived of judicial review. And, his position is
based solely on an argument made by counsel. Argument of
counsel is not evidence and there is no evidence that supports
Segura's position.
For the foregoing reasons, Segura has not established that his
2001 expedited removal proceeding improperly deprived him
of judicial review. Thus, he fails

Section 1326(d)(2).

El Shami held, “due process requires an alien who faces
[removal] be provided (1) notice of the charges against him,
(2) a hearing before an executive or administrative tribunal,
and (3) a fair opportunity to be heard.”

434 F.3d at 665;

Lopez-Collazo, 824 F.3d at 460-61;
id. at 461
see
(“[A]n alien subject to expedited removal is entitled to the
opportunity to be heard at a *699 meaningful time and in
a meaningful manner.”) (internal quotation omitted). And,
“[t]he expedited administrative removal scheme, in and of
itself, ‘comports with the minimum requirements of due
process.’ ”

Lopez-Collazo, 824 F.3d at 461 n.3 (quoting

United States v. Benitez-Villafuerte, 186 F.3d 651, 657-58
(5th Cir. 1999) (Jolly, J.)).
[19] To demonstrate prejudice, Segura must establish that,
“but for the errors complained of, there was a reasonable
probability that he would not have been deported.”

El

Shami, 434 F.3d at 665;
Lopez-Collazo, 824 F.3d at 462.
“This is not a generalized showing of prejudice; rather,
the defendant must link the actual prejudice he claims to
have suffered to the specific due process violation at issue.”
Lopez-Collazo, 824 F.3d at 462.
[20] Segura asserts the following due process violations:
that he was not deportable as charged and that immigration
officials improperly served the 2001 Final Order on him. 20
See ECF No. 11 at 13-14; ECF No. 13 at 14-16. Taking
the second argument first (service of the 2001 Final Order),
Toms testified in great detail about the steps that his office
took in 2001 to serve Final Orders, like the one at issue
in this case. Although he testified that he was not aware
of whether there was a record of whether the 2001 Final
Order (with the approving official's signature) was served on
Segura, he did testify that a copy of the 2001 Final Order
would have been given to Segura, based on his practice at
the time. Based on Toms' testimony (and the complete lack
of any contrary evidence from Segura), the Court finds that
Segura received signed and unsigned copies of the 2001 Final
Order. Segura does not argue that this alleged due process

(3) Fundamental Unfairness
[16]
[17]
[18] Nor has Segura established that the
2001 removal order was fundamentally unfair. To satisfy
violation prejudiced him. See
Lopez-Collazo, 824 F.3d at
466 (“The defendant's burden is to show that actual prejudice
Section 1326(d)(3), Segura “must show that (1) his due
resulted from the due process violation at issue.”) (emphasis
process rights were violated by defects in his underlying
in original). Thus, even if this alleged due process violation
deportation proceeding, and (2) he suffered prejudice as a
is otherwise viable (which it is not), it would not satisfy
result of the defects.”
El Shami, 434 F.3d at 664. As

App. 15a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

Section 1326(d)(3) because Segura has not attempted to
demonstrate that it prejudiced him.

Notably,
Aguilera-Rios did not deal with an alien who
was removed pursuant to expedited removal procedures and
involved an alien who was a lawful permanent resident. See

[21] [22] Segura also argues that he was not deportable as
id. at 628-29. Segura does not explain how (if at all) these
charged, and that is a due process violation. His conviction
clear differences should affect the analysis. 21
under Cal. Penal Code § 261.5(c) is no longer an “aggravated
Esquivel-Quintana v. Sessions, ––– U.S.
felony” after
––––, 137 S.Ct. 1562, 198 L.Ed.2d 22 (2017), he argues. As
Segura acknowledges, the “Fourth Circuit has not directly
addressed the argument that the entry of a removal order on a
legally erroneous basis is a due process violation.” ECF No.
11 at 13. However, in
Lopez-Collazo, the Court discussed
errors of law and due process violations:
Although an error of law, without more, “will ordinarily
not rise to the level of a due process violation,”
United
States v. Torres, 383 F.3d 92, 104 (3d Cir. 2004), *700
there might be circumstances under which some courts
would conclude that a misapplication of the law as it
existed at the time–not as understood in light of subsequent
judicial decisions–led to a due process violation, see
United States v. Pallares-Galan, 359 F.3d 1088, 1100-01
(9th Cir. 2004). Under such circumstances, it might be
possible for the court to conclude that “but for” the
misapprehension of the law, defendant would not have
been removed. But even these courts do not require the
agency to be clairvoyant, “inform[ing] the alien of a future
interpretation of the law” regarding “what the meaning of
the law always was in some theoretical way.”
United
States v. Vidal-Mendoza, 705 F.3d 1012, 1018-19 (9th Cir.
2013) (internal quotation marks omitted).
Lopez-Collazo, 824 F.3d at 467; but see
id. at 468
(Gregory, C.J., dissenting) (questioning this approach).
Recognizing that the Fourth Circuit has not held that an
error of law establishes a due process violation, Segura cites
United States v. Aguilera-Rios, 769 F.3d 626 (9th Cir.
2014), for the proposition that, “where the defendant was not
deportable as charged[,] [that is] both a due process violation
and prejudice.” ECF No. 11 at 14. It is true that the Ninth
Circuit has held that, if an alien “was removed when he
should not have been, his...removal was fundamentally unfair,
and he may not be convicted of reentry after deportation.”
Aguilera-Rios, 769 F.3d at 630 (quoting
United States
v. Camacho-Lopez, 450 F.3d 928, 930 (9th Cir. 2006)).

[23] In any event, the Fourth Circuit's decision in
LopezCollazo controls here and it establishes two principles. First,
in expedited removal proceedings, due process requires that
the alien have “ ‘the opportunity to be heard at a meaningful
time and in a meaningful manner.’ ”

Lopez-Collazo, 824

El Shami, 434 F.3d at 664-65).
F.3d at 461 (quoting
Under this rule, a due process violation may be established
where the expedited removal proceedings are conducted in a
language that the alien does not understand. See
also

id.; see

Nazarova v. INS, 171 F.3d 478, 484 (7th Cir. 1999);

Marincas v. Lewis, 92 F.3d 195, 204 (3d Cir. 1996). Here,
the record is clear that Segura spoke and understood English.
And, the record is devoid of other evidence or argument that
Segura did not have “the opportunity to be heard at a *701
meaningful time and in a meaningful manner.”

Lopez-

Collazo, 824 F.3d at 461;
id. at 461 n.3;
BenitezVillafuerte, 186 F.3d at 657. That is not changed by Segura's
argument that he did not know about a possible challenge to
the “aggravated felony” determination.
The second principle flowing from
Lopez-Collazo is that
“an error of law, without more, will ordinarily not rise to the
level of a due process violation...[but that] there might be
circumstances under which some courts would conclude that
a misapplication of the law as it existed at the time–not as
understood in light of subsequent judicial decisions–led to a
due process violation.”
Lopez-Collazo, 824 F.3d at 467
(internal citations and quotations omitted) (emphasis added).
Simply put, this is not one of those cases.
Contrary to the Government's argument, Ninth Circuit case
law in 2001 (when Segura was removed) was not clear
about whether Cal. Penal Code § 261.5(c) constituted an
“aggravated felony” for “sexual abuse of a minor.” Not until
2006 did the Ninth Circuit issue a published decision so
holding. See Afridi v. Gonzales, 442 F.3d 1212, 1215-1217
(9th Cir. 2006) (affirming the Board of Immigration Appeals'
determination that Cal. Penal Code § 261.5(c) was an

App. 16a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

“aggravated felony” for “sexual abuse of a minor”), overruled
by,
Estrada-Espinoza v. Mukasey, 546 F.3d 1147 (9th
Cir. 2008). Two unpublished opinions in 2004 applied the
modified categorical approach to hold that a conviction under
Cal. Penal Code § 261.5(c) qualified as an “aggravated
felony” for “sexual abuse of a minor.” See Tabalanza v.
Ashcroft, 109 Fed. Appx. 995, 995-97 (9th Cir. 2004) (“Under
our case law, sexual conduct with a 14-year-old qualifies as
‘sexual abuse of a minor.’ ”) (unpublished); Valdez-Camacho
v. Ashcroft, 110 Fed. Appx. 808, 809-11 (9th Cir. 2004)
(“Under our case law, sexual conduct with a 15-year-old
qualifies as ‘sexual abuse of a minor.’ ”) (unpublished).
Of course, the Court recognizes that these cases were decided
after Segura was found to have committed an “aggravated
felony” in 2001 and removed. Neither the Court nor the
parties have located a Ninth Circuit case that controlled the
question of whether Cal. Penal Code § 261.5(c) was an
“aggravated felony” for “sexual abuse of a minor” in 2001.
However, that lack of background law does not mean that
immigration officials performed “a misapplication of the law
as it existed at the time” of Segura's removal.
Collazo, 824 F.3d at 467.

process violation. But, if and when it does, Lopez-Collazo
teaches that, to violate due process, such an error must
have been “a misapplication of the law as it existed at the
time” of the removal proceedings, “not as understood in light

other words, the decision in

violation. 22
Because Segura has failed to meet his burden to demonstrate
*702
a due process violation, he necessarily fails to meet
Section 1326(d)(3), and it is not necessary to discuss the
“prejudice” aspect of

Section 1326(d)(3). 23

Segura has failed to meet his burden to establish that he has
Section 1326(d)(2) or
(d)
satisfied or is excused from
(3). Accordingly, his collateral attack fails and the Motion will
be denied.

Lopez-

[24] The Fourth Circuit has yet to hold that, in immigration
proceedings, an immigration officials' error of law is a due

of subsequent judicial decisions.”

work to establish a due process violation under
LopezCollazo. Here, immigration officials did not misapply the
law. Rather, as Toms testified, in determining whether Segura
had been convicted of an “aggravated felony,” he referred
to a list of California statutes that, in 2001, were considered
“aggravated felonies.” One of those statutes was Cal. Penal
Code § 261.5(c). There was no authority at the time holding
otherwise. Thus, even assuming that an error of law could
be a due process violation, Segura fails to establish such a

824 F.3d at 467. In

Esquivel-Quintana would not

CONCLUSION
For the foregoing reasons, DEFENDANT'S MOTION TO
DISMISS THE INDICTMENT (ECF No. 11) will be denied.
It is so ORDERED.
All Citations
390 F.Supp.3d 681

Footnotes
1
2

3

The Court follows the lead of counsel for the Defendant in referring to Segura-Virgen as “Segura.”
Segura's brief classifies the I-130 as “pending.” ECF No. 11 at 1. Segura briefly argues that the I-130 form
is relevant to the prejudice analysis under
8 U.S.C. § 1326(d)(3). As discussed below, the Court does not
reach the prejudice analysis, so it is unnecessary to further consider the I-130.
This provision reads: “Any person who engages in an act of unlawful sexual intercourse with a minor who
is more than three years younger than the perpetrator is guilty of either a misdemeanor or a felony, and
shall be punished by imprisonment in a county jail not exceeding one year, or by imprisonment pursuant to
subdivision (h) of Section 1170.” Cal. Penal Code § 261.5(c). A “minor” is defined as “a person under the
age of 18 years.” Cal. Penal Code § 261.5(a).

App. 17a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

4
5

6

7

8

9

10
11

8 U.S.C. § 1101(a) (43) (A) defines “murder, rape, or sexual abuse of a minor” as an aggravated felony.
At the evidentiary hearing, counsel for Segura acknowledged that Segura speaks fluent English and
understands it as well because he grew up in the United States and attended school here. And, Segura asked
to proceed without the aid of an interpreter. The record establishes that Segura speaks and understands
English and that he did so at the time of his removal proceedings.
Segura was informed that, in any response, he could: request an extension of time to respond; rebut the
aggravated felony charges (with supporting evidence); request an opportunity to review the government's
evidence; admit deportability; designate the country to which he chose to be removed; and/or request
withholding of deportation under the Convention Against Torture. See Gov't Ex. 2.
Toms testified that it was his practice to read the I-851 form to the alien and that, if the alien agreed to select
a particular item on the form, Toms would place an “x” in that particular check-box. Toms testified that the “x”
marks on Segura's I-851 form were written by Toms, but that Segura agreed with the selections and signed
the I-851 form.
As discussed further below, an alien in expedited removal proceedings has a statutory right to remain in the
United States for 14 days after a final removal order is issued to apply for judicial review. See
8 U.S.C.
§ 1228(b)(3).
Toms testified that he did not know whether there was any documentation indicating that the 2001 Final Order
with Weirich's signature (Gov't Ex. 3(b)) was served on Segura. However, he did testify that his practice (and
that of his office) at the time was to provide a copy of the final signed order to the alien and that he believed
he did that in this case.
The Government's witness, Immigration Officer Brad Long, testified that he believed Segura was in Calipatria
State Prison on a probation or parole violation.
As the Court discussed in Gonzalez-Ferretiz, language in Moreno-Tapia and a recent opinion by Judge
Section 1326(d) might be possible. See MorenoBrinkema suggest that collateral challenges outside of
Tapia, 848 F.3d at 170 (“We need not decide today...whether due process might in some circumstances
demand that an immigration order based on an unconstitutional conviction be subject to collateral attack.”);
United States v. Rivera Lopez, 355 F. Supp. 3d 428, 435 (E.D. Va. 2018) (it “remains an open question”
whether “due process requires that a defendant be given an opportunity to bring a collateral attack beyond
the requirements and limitations of
§ 1326(d)”) (emphasis in original).
The Court continues to be of the view that, at this juncture, given the clear language of the statute and the fact
that Moreno-Tapia,

Lopez-Collazo, and

El Shami all perform the collateral attack analysis solely within

the
Section 1326(d) framework, the cogent, well-reasoned approach taken in Romero-Caceres correctly
sets out the proper framework for resolving challenges such as the one made here by Segura.
12

Section 1326(d) states that the new
The “Section-by-Section” analysis of the legislation that added
subsection “allow[s] a court in a criminal proceeding against a deported alien who re-enters the U.S. to reexamine the underlying deportation order only if the alien” satisfies the three requirements of
Section
1326(d). 140 Cong. Rec. S.5558-01 (daily ed. May 11, 1994), 1994 WL 181390, at *S5571 (emphasis
added). “This language taken from
United States v. Mendoza-Lopez, 481 U.S. 828, 107 S.Ct. 2148, 95
L.Ed.2d 772 (1987), is intended to ensure that minimum due process was followed in the original deportation

13

proceeding while preventing wholesale, time consuming attacks on underlying deportation orders.”
Id.
Toms testified at the evidentiary hearing that his office had a list of California convictions that qualified as
“aggravated felonies” for immigration purposes. He testified that he would have looked at that list to determine
that Cal. Penal Code § 261.5(c) qualified as an “aggravated felony.”

App. 18a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

14

The Supreme Court left open the question of whether “the generic crime of sexual abuse of a minor may
include a different age of consent where the perpetrator and victim are in a significant relationship of trust.”
Id. at 1572. The parties do not argue that this open question is at issue in this case.

15

Esquivel-Quintana. See Thompson v. Barr, 922 F.3d
The Fourth Circuit recently considered the scope of
528, 534-35 (4th Cir. 2019). In Thompson, the Court held that a conviction under Va. Code § 18.2-370.1(A)
(for taking custodial indecent liberties with a child) was an “aggravated felony” under the INA, even after
Esquivel-Quintana. Thompson, 922 F.3d at 534-35. The Court held that
Esquivel-Quintana was
“focused on the narrow context of statutory rape,” offenses that “criminalize sexual intercourse based solely
Esquivel-Quintana, 137 S.Ct. at 1568, 1572). Because
on the age of the participants.” Id. at 534 (quoting
there were several differences between statutory rape offenses (the Court cited Cal. Penal Code § 261.5(c)
as an example of a statutory rape offense) and the Virginia statute at issue, the Fourth Circuit concluded
that

Esquivel-Quintana did not require a different outcome. Id. at 534-35. Thompson confirms this Court's

reading of
16
17

Esquivel-Quintana because Thompson cites Cal. Penal Code § 261.5(c) as a statutory rape

offense and holds that
Esquivel-Quintana is limited to statutory rape offenses.
During the evidentiary hearing, counsel for Segura acknowledged that the Court had previously rejected this
argument in Gonzalez-Ferretiz. Accordingly, counsel focused his argument on
Section 1326(d).
In expedited removal proceedings, an alien has a statutory right to remain in the United States for “14 calendar
days...from the date that such [Final Order] was issued, unless waived by the alien, in order that the alien
has an opportunity to apply for judicial review under

section 1252 of this title.”

8 U.S.C. § 1228(b)(3);

Lopez-Collazo, 824 F.3d at 457.
18

The Court does not view the difference in terminology between
having any significance. However, because

Mendoza-Lopez and

Narine as

Mendoza-Lopez is a Supreme Court decision dealing with

8 U.S.C. § 1326, the Court will use “considered [and] intelligent” in this Opinion.
19

To the extent that Segura relies on
El Shami, that reliance is likewise misplaced.
El Shami was a case
in which the alien was never sent notice of his deportation hearing, and therefore did not have an opportunity
to apply for any relief or seek judicial review. See

20

434 F.3d at 663-64. In contrast, Segura was personally

served with the I-851 form and affirmatively waived his right to judicial review.
El Shami is inapposite.
In a different part of his brief, Segura appears to argue in passing for additional due process violations: that
“Segura was not informed in his native language of the nature or basis of the proceedings” and that he “was
not advised of his right to challenge the legal conclusion that his conviction of forgery [sic] was an aggravated
felony.” ECF No. 11 at 11.
To the extent that he relies on these additional due process violations, they are meritless. First, immigration
officials must “provide the alien with a written translation of the Notice of Intent or explain the contents of
the Notice of Intent to the alien in the alien's native language or in a language that the alien understands.” 8
C.F.R. § 238.1(b)(2)(v) (emphasis added); Lopez-Collazo, 824 F.3d at 462. The record is clear that Segura
understood English, so the fact that it is not his native language is of no moment. Second, as described above,
Segura has not established that he has a right to learn of every aspect of his deportation that he might appeal.

21

At oral argument, counsel for Segura briefly raised

United States v. Valdivia-Flores, 876 F.3d 1201 (9th

Cir. 2017), a case involving expedited removal, in which the Court held that the alien satisfied
1326(d)(1) and

Section

(d)(2) because he did not give a “considered and intelligent” waiver of his right to have

his expedited removal reviewed. See

id. at 1206. It also concluded that the alien's state conviction did

App. 19a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

United States v. Segura-Virgen, 390 F.Supp.3d 681 (2019)

not qualify as an “aggravated felony,” establishing the “fundamental unfairness” prong of
(3). See

Section 1326(d)

id. at 1206-10.

Valdivia-Flores has important factual differences to Segura's case. The Court found that Valdivia-Flores'
waiver of his right to judicial review was invalid because, inter alia, the I-851 form did not give the alien the
opportunity to challenge the “legal conclusion underlying his removability,” the alien had requested a hearing
before an immigration judge (which apparently was ignored), and the “government provide[d] no evidence

22

id.
that an immigration officer ever met with [the alien] to explain the form or the issues it raised.” See
at 1206. Here, as discussed above, the Government presented evidence from Toms that he would have
reviewed the I-851 with Segura, including the waiver portion. And, as discussed below, the Court is bound
by Fourth Circuit authority regarding whether a due process violation has been established.
And, while cases from 2004 and 2006 cannot establish what the law was in 2001, cases like Tabalanza and
Afridi suggest that immigration officials did not misapply the law in 2001 because those later cases held
that Cal. Penal Code § 261.5(c) was an “aggravated felony” for “sexual abuse of a minor.”

23

Segura argues that
Lopez-Collazo's holding that courts must apply the law at the time of the deportation
proceeding should be overruled. ECF No. 13 at 10-14. Whatever the merits of this argument, this Court is
bound by Fourth Circuit precedent and declines Segura's invitation to do otherwise.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. 20a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

U.S. Department of Justice

Immigration and Naturaiization Service

/

./

Notice of TntRTit. tO Issuc a FirV..'A dministrative RsmOTal Order

In remoyal proceedings under section 238(b) of the Xnunigration and Nationality Act

To

SEGURA-VIRGEN,RODOLFO RENE

FILE NUMBER: A75 6Q7 596

Address: IN SERVICE CUSTODY
Telphone:

Pursuant to section 238(b) of the Immigration and Nationality Act(Act), 8 USC 1228(b), the Immigration and Naturalization Service (Service) has
determined that you are amenable to expedited administrative removal proceedings. The determination is based upon the following allegations:
ALLEGATIONS:

1. You are not a citizen or national of the United States.

2. You are a native of MEXICO

and citizen of MEXICO

3. You entered the United States at or near San Ysidro, Clalifomia on or about June 1, 1990;

4. You were not then inq)ected, admitted or paroled by an Immigration Officer;
5. You are not a Lawful Permanent Resident of the United States;

6. You were, on March 23, 2001, convicted in the Superior Court of California, in and for the County of Kem,for the offense of
Unlawful Sexual Intercourse, in violation of Section 261.5(Q of the California Penal Code ;

7. For that offense, you were sentenced to confinement for a period of 1 year.
CHARGE:

You are removable under Section 237(a)(2)(A)(iii) of the Act, 8 USC 1227(a)(2)(A)(ni), as amended, because you have been convicted of an
aggravated felony as defined in Section 101(a)(43)A of the Act, 8 USC 1101(a)(43)A

Based upon Section 238(b) of the Act, the Service is serving upon you this NOTICE OF INTENT TO ISSUE-A FINAL ADMINSTRATIVE
REMOVAL ORDER ('Notice ofIntent") without a hearing before an Immigration Judge.
Your Rights and Responsibilities

You may choose to be represented (at no ejqtense to the United States government)by counsel, authorized to practice in this
proceeding. If you wish legal advice and cannot afford it, contact legal counsel from the list of available free legal services
provided to you.

You must respond to the above charges in writing to the Service address provided on the other side of this form within 10 calendar
days of service of this notice (or 13 calendar days if service is by mail). The Service must RECEIVE your response within that
time period.

In your response you may: request, for good cause, an extension of time; rebut the charges stated above (with supporting
evidence); request an opportunity to review the government's evideSce; admit deportability; designate the country to which you
choose to be removed in the event that a filial order of removal is issued(which designation the Service will honor only to the

extent permitted under section 241 of the Act, 8 U.S.C. 1231); and/or, if you fear persecution in any ^ecific country or countries

on account of race, religion, nationality, membership in a particular social group, or political opinion or, if you fear torture in any

specific country or countries, you may request withholding of removal under section 241(B)(3) of the Act or withholding/deferral

of removal under the Convention Against Torture and Other Cruel, Inhuman, or Degrading Treatment or Punishment(Convention
Against Torture). A grant of withholding or deferral of removal would prohibit your return to a country or countries where you
would be persecuted or tortured, but would not prevent your removal to a safe country.

You may seek judicial review of any final administrative order by filing a petijipn for revigw within 30 calendar days after the
date such final admiuisfrative order is issued, or you may waive such appeal Ify stating, in writing, your desire not to appeal.

DEPUTYIHP OmECTOR

sCTiinp nffifceT^

GOVERNMENT 1
EXHIBIT
■App.

brisTOance
'

21a

,

AUb 1

Date/Time

Fonn 1-851 (5-19-99)N

CERTIFICATE OF SERVICE

I served this Notice o^Intept. I have determined that the person served with this document is the above named individual.
hd title or 5fflcer)

(Date and manner of Service)

I explained and/or served this Notice of Intent to the alien in the.

language.

Name of interpreter;
Location/Employer

I ACKNOWLEDGE THAT I HAVE RECEIVED THIS NOTICE OF INTENT TO ISSUE A FD^AL ADMlNISTRA'nVE

TT

REMOVAL ORDER

(Signature ofrespondent)

I

I

7"!/

(J

^

77

77

^Date anH Timft

Alien refused to acknowledge receipt of this document
(Signature an Tide ofOfficer

Dale and Time

I Wish to Contest and/or to Request Withholding of Removal

I

I
I

I

I contest my deportabiliiy because

□
□
□
□

(Attach any supporting documentation):

I am a citizen or national of the United States.
I am a lawful permanent resident of the United States.
I was not convicted for the criminal offense described in allegation number 6 above
I am attaching documents in support of my rebuttal and request for further review.

I I request withholding or deferral of removal to
[Name(s) of Country or Countries]:
I Under Section 241(b)(3) of the Act, because I fear persecution on account of my race, religion, nationality, membership in a particular

□

social group, or political opinion in that country or those countries. .

Under the Convention Against Torture, because I fear torture in that country or those countries

Signature of Respondent

Print Name of Respondent

Date and Time

I Do Not Wish to Contest and/or to Request Withholding of Removal
I admit the allegations and charge in this Notice of Intent. I admit that I am deportable and acknowledge that I am not eligible for any
form of relief fiom removal. I waive my right to rebut and contest the above charges and my right to file a petition for review of the Final

Removal Order. I wish to be deported to

I ?lso waive the 14 day period of execution of the Final Remov^ Order.

Signature of Respondent v
Signatur

/ PiW^N^e of Resnod^nt
/Ht

^

S

>ate and Time

6^

Print Name of Witness
RETURN THIS FORM TO:

United States Department of Justice
liiiiiiigratton and Naturalization Service

800 TRTIXTUN AVENUE. SPITE 317
Bakersfield. California 93301
The Service office at the abo?

' I^CEJVE your respondwiffiin 10 calender days from the date of
« by mail)

App. 22a

Form 1-851 (5-19-99)N

